                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

11   Case Number: 1-06-06-0014
                                                                                     11         Page 1 of I



          This investigation was opened as a result of an anonymous complaint that a university1 has an .
          "award program2 where if faculty will shift grant money to pay salaries, the university will kick-
          back a portion of the amount as a monetary award to the faculty member.

          Investigation, which included review of the awardee's A-1 33 audit report and documents
          provided by the awardee for the two NSF awards which had salary support, disclosed no
          information to substantiate the allegation or to indicate that NSF award funds had been
          inappropriately spent.

          In light of the above, no further investigative effort is necessary in this matter.

          Accordingly, this case is closed.
